Office of Inspector General


September 26, 2014



Mr. Thomas Kelly
Acting Vice President, Department of Policy and Evaluation
Millennium Challenge Corporation
875 15th Street, NW
Washington, DC 20005

Subject: Can Foreign Aid Create an Incentive for Good Governance? Evidence from the
Millennium Challenge Corporation (MCC)

Dear Mr. Kelly:

This letter transmits a report on an empirical study of the MCC effect: that is, the
incentive effect that availability of MCC funding has on policy makers in developing
countries (M-000-14-005-S).

The MCC awards large grants, known as compacts, to low- and lower middle-income
countries that score well on 20 indicators that measure the quality of candidate
countries’ political, economic, and social policies. While there is little doubt that
availability of MCC funding has influenced some decision makers in developing
countries to undertake policy reforms, it is uncertain how large or widespread the MCC
incentive effect is.

To contribute to a better understanding of the significance and extent of the MCC
incentive effect, OIG engaged the services of an economist to investigate the MCC
effect using statistical estimation techniques. This study did not produce convincing
statistical evidence of the existence of the MCC effect.

The paper itself accompanies this transmittal letter as Appendix I. Our evaluation of
management comments is included as Appendix II, and the full text of management
comments appears in Appendix III. The data base and procedures used to conduct the
analysis are available at https://senseplatform.com/tristan/mcc-effect, best viewed using
Google Chrome.




Millennium Challenge Corporation
1401 H Street, NW
Suite 770
Washington, DC 20005
https://oig.usaid.gov
Prior Work

MCC has reported instances in which specific countries have taken actions to improve
their standing on the scorecards. For example, MCC reported that the Sierra Leonean
Government worked with MCC and others to improve its scorecard performance after
passing only six indicators in fiscal year 2005. According to MCC, the government
expanded the mandate and resources of its anticorruption agency, increased public
health expenditures and immunization coverage, and reduced average tariff rates while
expanding access to credit. Sierra Leone passed the MCC scorecard in fiscal year 2013,
but in fiscal year 2014 it did not pass MCC’s control of corruption indicator. MCC noted
that this indicator must be passed before a compact is approved and encouraged Sierra
Leone to continue its efforts to improve.

Similarly, MCC reported that the Government of Niger formed a committee that worked
with MCC and others to address policy performance and data quality issues. According
to MCC, the committee helped promote the government’s efforts, such as increased
environmental protection and progress on gender equality. Niger passed the scorecard
in fiscal year 2012 and was selected to develop a proposal for a compact.

In 2013 researchers at the College of William and Mary reported the results of a survey
designed to assess the influence of MCC’s eligibility criteria on governments’ reform
efforts.1 The researchers surveyed more than 600 policy makers and practitioners,
including heads of governments, ministers, deputy ministers, and senior officials in
100 low- and lower middle-income countries. The survey respondents cited MCC’s
eligibility criteria as one of the three most influential external assessments of government
performance. Other influences included the United Nations’ Millennium Development
Goals and the World Bank’s Doing Business indicators.

Based on the survey results, the researchers concluded that the MCC effect existed but
was not evenly distributed among countries, time, or policy areas. The effect was
especially prevalent in the areas of corruption and fiscal policy, and less apparent in
areas such as political rights and civil liberties. The survey also found that officials in
countries already affiliated with MCC said they were influenced by the eligibility criteria.
The survey documented that MCC influenced policy makers’ decisions and actions to
some extent.

A limited number of quantitative analyses have attempted to understand the MCC effect.
The earliest of these was conducted by Harvard researchers in 2006.2 The researchers
attempted to ascertain whether countries increased their reform efforts following the
announcement and subsequent creation of MCC. The analysis found that candidate
countries reformed approximately 25 percent more indicators after the announcement of
MCC than before it. However, because the analysis was conducted soon after MCC’s
creation and with a limited amount of data, the researchers determined that the results
were not conclusive.

1
  Bradley Parks and Zachary Rice, Measuring the Policy Influence of the Millennium Challenge
Corporation: A Survey-Based Approach, Technical Report, Williamsburg, VA: College of William
and Mary, 2013.
2
  Doug Johnson and Tristan Zajonc, “Can Foreign Aid Create an Incentive for Good Governance?
Evidence from the Millennium Challenge Corporation,” Working Paper No. 11, Center for
International Development at Harvard University, Cambridge, MA, April 2006.

                                                                                          2
An analysis in 2011 focused exclusively on the control of corruption indicator and
whether MCC had successfully promoted better control of corruption.3 The analysis
compared countries that had not passed the control of corruption indicator but were
within reach of this goal to countries that had either passed or were very unlikely to pass.
The assumption was that countries near the goal would have the greatest incentive to
reform.

The researchers concluded that MCC had had an effect on countries’ efforts to battle
corruption, and that countries with a good chance of passing this indicator addressed
corruption more effectively than others, especially in MCC’s early years. However, the
researchers suggested that MCC did not offer an incentive to countries that had a
remote chance of obtaining MCC assistance, and that once countries passed the
corruption indicator, they did not attempt to reform further.

In 2013 a research team at the University of Wisconsin-Madison conducted an analysis
of the MCC effect but found no compelling evidence of its existence.4 The researchers
studied countries’ actions following the creation of MCC in 2004 and analyzed results for
five different groups: countries near MCC eligibility; countries that passed the control of
corruption indicator; countries participating in MCC threshold programs (designed to help
countries become more competitive for compacts); countries in the middle range of
government expenditures; and countries that had been identified as having experienced
the MCC effect. The researchers conducted hundreds of comparisons, but did not find
strong evidence for an MCC effect, as they found a roughly equal number of positive and
negative statistically significant results.

Current Approaches and Results

The investigators used two approaches to estimate the MCC effect: a “difference in
differences” approach and a “regression discontinuity design” approach. These
approaches and the results they produced are discussed below.

Difference in Differences

The difference in differences approach used in the paper estimates the MCC effect by
comparing policy reform rates in candidate countries (low- and lower middle-income
countries) before and after the establishment of MCC in 2004. To isolate the MCC effect
from other factors that influence the rate of policy reform, this approach subtracts out the
policy reform rates in noncandidate middle-income countries. The assumption is that
candidate countries would have the same change in policy reform rates as middle-
income countries, except that they are eligible for MCC funding and therefore




3
  Hannes Ohler , Peter Nunnenkamp, and Axel Dreher, “Does Conditionality Work? A Test for an
Innovative US Aid Scheme,” CESifo Working Paper 3454, CESifo Group Munich, 2011.
4
  Ingrid Aune, Yanyan Chen, Christine Miller, and Joshua Williams, The MCC Incentive Effect:
Quantifying Incentives for Policy Change in an Ex-Post Rewards System, policy report prepared
for MCC, La Follette School of Public Affairs, University of Wisconsin-Madison, October 2013.

                                                                                           3
experience the MCC incentive effect.5 If this assumption is not valid, then the estimate
will be biased.

The results of this difference in differences analysis do not provide statistically significant
evidence of an MCC incentive effect. A combined analysis of MCC indicators that
existed in 2008 or earlier (presented graphically in Figure 4 of the attached report)
shows a pattern that is suggestive of an MCC effect. In examining point estimates of
reform rates in candidate countries, a noisy, quasi-random pattern of reform rates is
observed prior to establishment of MCC in 2004; after 2004, point estimates of reform
rates rather consistently exceed the 2004 baseline rate. However, the 90 percent and
95 percent confidence intervals include the 2004 baseline rate; so it is not possible to
reject the possibility that post-2004 reform rates are equal to the 2004 baseline rate.

Analysis of the individual indicators (presented graphically in Figures 5 through 8 of the
attached report) includes some statistically significant results. But the coefficients for
several of the indicators show unexpected signs (i.e., reform rates are lower after 2004),
contributing to a conclusion that the results, as a whole, do not provide convincing
evidence of an MCC incentive effect.

Regression Discontinuity Design

A regression discontinuity design uses a cutoff point to assign members to a treatment
group and a control group, and uses the size of the discontinuity in the regression line at
the cutoff point to estimate the effectiveness of the treatment. In the current research,
the cutoff point is a passing score on an MCC policy indicator in a particular year.
Countries that score below the cutoff point are in the treatment group (because they
presumably face a greater incentive to improve their score to become eligible for MCC
assistance), while countries that score above the cutoff are in the control group.

The local linear regression discontinuity design used in the attached report estimates a
separate linear equation for every point on the X-axis, with points on the X-axis
representing distance from the cutoff point on a particular policy indicator: that is, the
amount by which a country exceeded or fell short of a passing score on that indicator.
The regression lines relate distance from the cutoff point as an independent variable to
each country’s subsequent 3-year reform rate as the dependent variable for each point
on the X-axis. When these lines are joined, they form a smooth curve relating distance
from the cutoff point to subsequent reform rates.

If the MCC effect exists and countries just below the passing score for a particular
indicator have higher subsequent reform rates than countries that already have a


                         1                     1
    More formally, ˆ ATT    ( Yi1  Yi0 )        ( Yi1  Yi0 ) , when ˆ ATT is the estimated average
5
                        N1 i:W 1
                              i                N2 i:W 0
                                                  i



treatment effect on the treated group. Or for the estimated MCC effect on policy reform rates in
candidate countries N1 is the number of countries in the treatment group, N 2 is the number of
countries in the control group, Σ signifies summation, Wi = 1 indicates that a country is in the
treatment group, Wi = 0 indicates that a country is in the control group, Yi1 is the reform rate for a
country between any 2 years after establishment of MCC in 2004, and Yi0 is the reform rate for a
country before establishment of MCC.

                                                                                                        4
passing score on that indicator, we would expect the curve to jump down at the cutoff
point. This “jump” is the discontinuity in a regression discontinuity design.

The analysis does not provide statistically convincing evidence of an MCC effect. An
analysis of all of the indicators combined (Figure 10 in the attached report) produces an
estimated jump of just 0.01 standard deviations, with a 95 percent confidence interval of
plus or minus 0.2 standard deviations. That is, with 95 percent confidence, the existence
of an MCC effect greater than 0.2 standard deviations at the cutoff point can be rejected.

When the indicators are analyzed individually (Figures 11 and 12 in the attached report),
there are two statistically significant results, for the government effectiveness indicator
and the inflation indicator. But the sign for government effectiveness is the opposite of
what is expected, indicating that countries facing an MCC incentive effect reform more
slowly than countries that are not incentivized. Taken as a whole, these results do not
provide persuasive statistical evidence of an MCC effect.

Conclusion

This work should be read and interpreted in conjunction with other available evidence on
the MCC incentive effect. Prior work cited in this transmittal letter persuades us that an
MCC incentive effect is operative in certain specific instances, but this effect is not large
enough or widespread enough to be measured with the statistical approaches that were
used in the attached report.

Please direct any questions to Melinda Dempsey.


                                              Sincerely,

                                                           /s/

                                              Melinda Dempsey
                                              Deputy Assistant Inspector General
                                              Office of Audit
                                              Millennium Challenge Corporation



cc: Karla Chryar, Compliance Officer, MCC
    LeJuan Butler, Senior Executive Assistant, MCC
    Robert Fry, Performance Audits Director, OIG/MCC
    Paula Mathews, Program Analyst, OIG/MCC




                                                                                           5
                                                                                                          Appendix I



        Can Foreign Aid Create an Incentive for Good
        Governance? Evidence from the Millennium
                   Challenge Corporation⇤
          Doug Johnson                   Gene Goldstein-Plesser                      Tristan Zajonc†
                                             February 27, 2014



                                                     Abstract
            The Millennium Challenge Corporation (MCC) awards aid to countries that perform well on a
       set of independently compiled governance indicators. Proponents of this new form of aid argue that
       1) aid will be more effective when given to well-governed countries and 2) countries will respond
       to such incentives by improving their policies. While significant qualitative evidence exists sup-
       porting an MCC incentive effect, the quantitative evidence is inconclusive. This paper attempts to
       estimate the MCC incentive effect by exploiting discontinuities in MCC eligibility rules and reform
       patterns before and after the MCC was created in 2004 for candidate and non-candidate countries.
       Using data from 2000 to 2012, we find candidate countries reform significantly faster than non-
       candidate middle-income countries in the years following the MCC’s creation, but that these effects
       become statistically insignificant when controlling for pre-MCC reform trends. With the excep-
       tion of inflation, we find no evidence that countries that fall just below eligibility thresholds, where
       the incentive effect would presumably be stronger, reform faster than countries that just pass these
       thresholds. While we do not find evidence the MCC has spurred dramatic reform in a large number
       of candidate countries, we also cannot rule out economically significant effects or effects in specific
       countries. When pooling all indicators and years, our 95% confidence intervals include effects on
       reform rates as high as 0.2 standard deviations. For individual indicators, our confidence intervals
       include many effects as large as 0.5 standard deviations. The best evidence for an MCC incentive
       effect therefore remains qualitative. Our results do not speak to the overall merits of the MCC.

JEL Classifications: O1
Keywords: MCC Effect, Millennium Challenge Corporation, aid policy, foreign assistance, good gov-
ernance, aid conditionality.




   ⇤ This paper is a substantially updated version of a working paper with the same title released in 2006 by Tristan

Zajonc and Doug Johnson that used preliminary data from the MCC. The current version is supported by a contract
from the Inspector General’s Office of USAID. The results and conclusions are the authors alone. We are grateful
for feedback from Alberto Abadie, Tim Cox, Jishnu Das, Robert Fry, Andria Hayes-Birchler, Asim Khwaja, Paula
Mathews, Brad Parks, Michael Walton, and seminar participants at Harvard.
    † Corresponding author: tristan@senseplatform.com.



                                                                                                                   6
1    Introduction
Created by the U.S. Congress in January 2004, after being proposed two years earlier by Pres-
ident Bush, the Millennium Challenge Corporation (MCC) is an independent U.S. foreign aid
agency with a mission to reduce poverty and promote economic growth through an innovative
model of development assistance. Rather than delivering aid to a broad collection of impover-
ished nations, the MCC grants assistance only to countries deemed most committed to ruling
justly, investing in their citizens, and promoting economic freedom as measured by a set of
objective and transparent governance indicators provided by non-governmental entities. Pro-
ponents of this new form of aid argue that 1) aid will be more effective when given to well-
governed countries and 2) countries will respond to such incentives by pursuing sound policies.
This latter incentive effect – often called the “MCC Effect” – is the focus of this paper. We seek
to answer the question: have the MCC eligibility rules cause candidate countries to improve
their governance as measured by the MCC indicators?
     Existing quantitative evidence for an MCC incentive effect is limited and inconclusive. The
first empirical study of the MCC effect is a 2006 version of this paper. Using data from 2000 to
2004, Johnson and Zajonc (2006) find that MCC candidate countries reformed faster after the
MCC was announced in 2002 than they had in preceding years and than higher-income non-
candidate countries. However, due to the infancy of the MCC at the time of publication, the
paper only covers a short window between the MCC’s announcement in 2002 and the beginning
of its operations in 2004. The results are therefore only suggestive.
     Several more recent papers update this analysis along various lines. Ohler, Nunnenkamp
and Dreher (2011) report evidence for an incentive effect on the MCC’s control of corruption
indicator, particularly in early years. Aune et al. (2013) provide a comprehensive exploration
of the MCC effect using independently compiled data and variations on the empirical strategy
outlined in Johnson and Zajonc (2006). They find no compelling evidence for an MCC incentive
effect. The statistically significant results they do report are picked out of 645 comparisons, with
roughly an equal number of positive and negative statistically significant results.
     The most compelling evidence for an MCC incentive effect comes from anecdotal reports
and qualitative surveys. MCC (2013a) and World Bank (2007) document policymakers citing
the MCC as motivation for their reform efforts. In a comprehensive survey of MCC stake-
holders, Parks and Rice (2013) find that the MCC eligibility criteria are one of the three most
influential external assessments of government performance, along with the Millennium De-
velopment Goals and World Bank’s Doing Business indicators. Parks (forthcoming) expands
this analysis and documents MCC-inspired policy responses in a constructed database of policy
reforms coded from archival data. These qualitative results are persuasive in one respect: MCC
eligibility rules clearly factor in the calculations made by policymakers, even if the magnitude
and exact nature of these calculations are unclear. Section 3 provides a fuller review of existing
quantitative and qualitative evidence for an MCC incentive effect.
     This paper attempts to estimate the MCC effect quantitatively by updating and significantly
expanding on the earlier work by Johnson and Zajonc (2006). Using data from 2000 to 2012,
we explore two empirical strategies. First, we compare reform before and after the MCC
was created for low and low-middle income candidate countries compared to non-candidate
middle-income countries that do not face an MCC incentive. Second, we compare reform for


                                                                                                  7
candidate countries just below the MCC eligibility thresholds, where the incentive for reform
is presumably stronger, with candidates that just pass the thresholds and presumably have a
weaker, although potentially still positive, incentive to reform. The first approach is similar
to the difference-in-differences strategy followed by Johnson and Zajonc (2006), Ohler, Nun-
nenkamp and Dreher (2011), and Aune et al. (2013). The second approach is an example of
regression discontinuity (RD) design (Thistlethwaite and Campbell, 1960; Hahn, Todd and der
Klaauw, 2001).
    Looking at reform rates between 2004 and 2012, low income and low-middle income can-
didate countries reformed significantly faster than middle income non-candidate countries —
countries with GNI per capita below $10,000 — across a number of indicators. Averaging
across the original indicators used in 2004, candidate countries increased their performance by
roughly 0.25 standard deviations more than middle income non-candidate countries in the years
following the MCC’s creation. However, middle income countries are substantially different in
their baseline income, indicator levels, and reform patterns. To correct for this, Johnson and
Zajonc (2006) propose a difference-in-differences strategy that uses pre-MCC trends to control
for differences between candidate and non-candidate countries. That is, Johnson and Zajonc
(2006) assume that, absent the MCC, differences in reform rates between candidate and non-
candidate countries after 2004 would have been the same as the differences prior to 2004. Ohler,
Nunnenkamp and Dreher (2011) and Aune et al. (2013) follow similar strategies although with
different definitions of the control group and time periods. Given the sensitivity of the results
in Johnson and Zajonc (2006), Ohler, Nunnenkamp and Dreher (2011) and Aune et al. (2013)
to the exact specifications used, in this paper we report the majority of results graphically, and
adjust for baseline differences in reform by controlling for pre-MCC trends rather than using a
simple differencing approach.
    Controlling for baseline differences in reform largely eliminates the differences in post-
MCC reform rates, although the aggregate point estimates remain positive in our default spec-
ification (Figures 4, 5, 6, 7, and 8). For specific years and indicators there are statistically
significant effects, but the adjusted estimates include zero effect in the vast majority of cases
and are not consistently signed in the direction of a positive improvement. Averaging across
the original 2004 indicators (Figure 4), we cannot reject no effect for both low and low-income
countries in any year between 2004 and 2012. Nevertheless there is considerable uncertainty.
Even when pooling indicators, our 95% confidence intervals include effects as large as 0.25
standard deviations.
    A similar analysis for GNI per capita growth — the ultimate goal of MCC-driven reform
— also finds no statistically significant effect (Figure 9). However the confidence intervals
for these estimates cover all plausible changes in growth. We include these results only for
completeness.
    While the comparisons across time and between candidate and non-candidate countries is a
useful exercise, it is possible that events other than the MCC’s creation differentially affected
candidate countries after 2004. Our RD results address this potential concern. Using the pub-
lished eligibility cutoffs for each year and original data from MCC report cards, we estimate the
effect of just failing the eligibility criteria on countries’ subsequent three years of reform. If the
MCC incentive effect was large, countries just failing the eligibility cutoff would presumably
reform faster than countries that already pass the eligibility threshold. Given these cutoffs are

                                                                                                    8
arbitrary outside the context of the MCC, any change in reform around these cutoffs can be
credibly attributed to the MCC incentive effect.
    With the exception of inflation, we find no statistically significant positive effects (Figures
10, 11, and 12). Averaging across all indicators and years, the RD estimate for the incentive
effect on reform is 0.01 standard deviations (0.1 standard error). In the aggregate RD result there
is no visible discontinuity (Figure 10) . While the positive result for inflation is interesting,
we cannot reject that it is a statistical artifact given the number of comparisons we report.
Any formal multiple comparisons procedure (e.g. a Bonferroni correction) would eliminate the
statistical significance of both findings. The inflation indicator is also one of the least susceptible
indicators to policy influence according to surveys reported in Parks and Rice (2013). We also
find a negative effect for government effectiveness, although this result is not robust to varying
RD bandwidths.
    While we do not find any evidence of large, broad-based reform spurred by the MCC’s eligi-
bility rules, we cannot rule out economically significant effects or effects for specific countries.
For both our difference-in-differences and regression discontinuity based estimates, our con-
fidences intervals are large, including many effects between 0.25 and 0.5 standard deviations.
Effects of this magnitude would represent a major success. We also only study aggregate effects
— the effect for all candidate countries in the case of our difference-in-differences estimates and
the effect for countries near a single eligibility threshold for our RD estimates. We cannot rule
out that the MCC eligibility rules have a large impact on a handful of truly committed reform-
minded governments.
    More broadly, the results of Parks and Rice (2013) and Parks (forthcoming) suggest that the
MCC incentive effect varies by countries, year, and indicator, and that it operates over multiple
stages of the policymaking process. In this paper, we focus exclusively on reform as measured
by changes in the MCC indicators. Yet many of these indicators are difficult to change, lag
significantly behind policy reforms, and include substantial noise, particularly when examining
changes. The lack of a measurable effect on MCC indicators does not preclude the possibility
of other significant effects on the inputs and processes that drive reform.
    Our results do not speak to the overall merits of the MCC. While the MCC incentive effect
has received considerable attention, the MCC is based on the premise that aid is more effective
when well-governed countries receive significant grants to pursue country-led solutions that
promote economic growth and reduce poverty, followed by rigorous evaluations of what works
and what doesn’t. If the MCC compacts generate a positive economic rate of return or signif-
icant learning, the MCC incentive effect, if it exists, would be an extra benefit, rather than the
solitary feature that determines the MCC’s success.
    This paper is organized as follows: Section 2 summarizes the history of the MCC, the
manner in which the MCC distributes aid, and the current status of the MCC. Section 3 discusses
previous qualitative and quantitative research on the MCC incentive effect. Sections 4 and
5 outline our empirical strategy and data. Section 6 reports our main results and Section 7
concludes.




                                                                                                     9
 Millenium Challenge Corporation Timeline
                                                                                                                                    MCC selects first LMIC candidate
       Bush proposes MCC      Bush transmits legislative proposal               MCC selects first eligible countries                           countries
         (Mar 14, 2002)                 (Feb 5, 2003)                                   (May 6, 2004)                                       (Jul 28, 2005)

                                                                       Bush signs MCC legislation
                                                                             (Jan 23, 2004)




      2002                              2003                                   2004                                      2005                                          2006




                                                                    MCC selects first candidate countries              MCC approves first compact
                                                                              (Feb 2, 2004)                                 (Mar 14, 2005)




                           Figure 1: Timeline of MCC legislation and implementation.

2       Background
2.1          History and Motivation for MCC
In March 2002, the Bush administration committed to increase the US budget for overseas de-
velopment assistance by $5 billion annually — the largest single increase in overseas assistance
in over forty years. This increase included the creation of a new government agency, the Millen-
nium Challenge Corporation (MCC), to oversee the distribution of these funds. Two years after
being proposed, the MCC was created by the U.S. Congress in January 2004 and began oper-
ations shortly thereafter. Figure 1 gives an overview of the MCC’s timeline, which is relevant
for our difference-in-differences estimates and interpreting the results in Johnson and Zajonc
(2006) and Ohler, Nunnenkamp and Dreher (2011).
    The principles underlying the MCC and those of traditional aid agencies are different.
Rather than distributing aid based on a country’s need or U.S. geopolitical interests, the MCC
selectively helps those countries judged committed to governing justly, investing in their cit-
izens, and promoting economic freedom, as measured by a set of objective, transparent, and
independently compiled indicators (Table 1).
    There were two primary motivations for MCC’s design. First, because MCC funds would
only go to the best governed poor countries, proponents argued that the funds would be better
spent. This idea received support not only from the long-held intuition of many development
professionals, but also from timely empirical research. In an influential paper, Burnside and
Dollar (2000) used historical data on aid, growth, and various measures of governance to ar-
gue that aid, when disbursed to countries that are governed effectively, causes more growth.
They conclude, “aid has a positive impact on growth in developing countries with good fiscal,
monetary, and trade policies but has little effect in the presence of poor policies.” While this
conclusion has since been questioned by other research, such as Easterly, Levine and Roodman
(2004), it was a powerful statement in support of the MCC’s eligibility rules.
    Second, by basing aid on past performance, proponents of the MCC argued that the MCC
would create an incentive for good governance. In a speech outlining his vision for the MCC,
newly installed MCC CEO John Danilovich expressed the belief that “the only way that [the
MCC] can be transformational is to incentivize these countries to make the reforms that are
necessary” (Danilovich, 2006). This belief that the MCC would alleviate poverty by creating an


                                                                                                                                                                              10
                                                                         TABLE 1. SUMMARY OF MCC INDICATORS
                         Indicator                                             Sign      Source                                                   Year Added                Year Dropped
                         Political Rights                                      (+)       Freedom House                                            2004
                         Civil Liberties                                       (+)       Freedom House                                            2004
   Ruling Justly




                         Voice and Accountability                              (+)       World Bank/Brookings Institution                         2004                      2012
                         Freedom of Information                                 (-)      Freedom House                                            2012
                         Government Effectiveness                               (+)      World Bank/Brookings Institution                         2004
                         Rule of Law                                            (+)      World Bank/Brookings Institution                         2004
                                          p
                         Control of Corruption                                 ((+))     World Bank/Brookings g Institution                       2004
                         Child Health                                           (+)      Columbia/Yale                                            2012
   Investing in People




                         Girls' Primary Education Completion Rate              (+)       UNESCO                                                   2004
                         Girls' Secondary Education Enrollment Ratio           (+)       UNESCO                                                   2012
                         Immunization Rate                                     (+)       World Health Organization                                2004
                         Natural Resource Management                            (+)      Columbia/Yale                                            2008                      2012
                         Natural Resource Protection                           (+)       Columbia/Yale                                            2012
                         Public Expenditure on Health (% GDP)                   (+)      World Health Organization                                2004
                         Public Primary Education Spending (% GDP)             (+)       UNESCO                                                   2004
                         1-Year Consumer Price Inflation                        (-)      International Monetary Fund                              2004
                         Access to Credit                                       (+)      International Finance Corporation                        2012
   Economic Freedom




                         Business Start-Up                                      (+)      International Finance Corporation                        2008
                         Cost of Starting a Business                           (-)       World Bank Group                                         2006                      2008
                         Days to Start a Business                              (-)       World Bank Group                                         2004                      2008
                         Fiscal Policy                                         (+)       International Monetary Fund                              2004
                         Gender in the Economy                                 (-)       World Bank                                               2012
                         Land Rights and Access                                 (+)      International Fund for Agricultural Development          2010
                         Regulatory Quality                                    (+)       World Bank/Brookings Institution                         2004
                         Trade Policy                                          (+)       Heritage Foundation                                      2004


                         Note: "Sign" column denotes direction of change in indicator that is associated with an improvement.

Table 1: Summary of MCC indicators. Sign denotes direction of change in indicator that is
                         Political Rights, Civil Liberties, and Trade Policy indicators were rescaled in 2007, and their signs were reversed. All three are currently (+)
                         Girls' Secondary Education indicator replaces Primary Education indicator for LMIC countries only
associated with an improvement. Political rights, civil liberties, and trade policy indicators
were rescaled in 2007 to be positive. All three are positive in 2012. Girls’ secondary education
indicator replaced primary education indicator for LMIC countries only.




                                                                                                                                                                                       11
incentive for countries to pursue better policies was based on theory rather than evidence. Just
as individuals respond to incentives, proponents argued, so too do countries. Yet the MCC was
the first aid agency to put this assumption to the test using a form of ex-post conditionality.
     While the World Bank and the other international financial institutions have long attempted
to link aid to policy, these institutions do so mainly by placing conditions on the use of money
after its disbursement rather than selecting potential recipients on the basis of their policies
before disbursement. In the case of the World Bank, future tranches of loans may, in theory,
be cancelled if governments fail to meet the conditions specified in the original disbursement.
However, the World Bank has opted to enforce this rule only once — the case of Senegal in the
1980s (Mosley, Hudson and Verschoor, 2004).
     Moreover, even though many organizations claim to support countries with good policies,
this does not appear to be true. Alesina and Weder (2002) find that there is no relationship
between bilateral and multilateral aid and the corruption level of recipient countries. For the
United States they actually find a positive relationship between corruption and aid. This stands
in stark contrast to the MCC allocation rule; countries cannot receive MCC aid unless they are
above the median on the control of corruption indicator.

2.2   Funding and Distribution of MCC Aid
Although the Bush Administration originally requested $5 billion to be allocated to the MCC
for disbursement each year, Congress approved only $1 billion, $1.5 billion, and $1.75 billion
for fiscal years 2004, 2005, and 2006 respectively. In its first year, despite certifying sixteen
countries as eligible to receive MCC funds, the MCC signed no compacts with any of the
eligible countries, leading to criticism that it was too slow ramping up its operations. In its
second year, MCC signed five separate compacts, incurring a grant obligation of over $900
million over five years. Subsequent years have seen a grand total of 29 full compacts signed,
along with 24 Threshold Programs, small aid packages designed to help a country improve its
governance practices in order to meet MCC qualifications.
    Although the Obama Administration has expressed support for the MCC’s methods, for-
eign aid budgets have been trimmed amid recent budget negotiations in Congress, with only
$898 million allocated to the MCC in FY2014 (foreignassistance.gov, 2013). Thus, the MCC
accounts for only a small fraction of total U.S. foreign assistance, 5% in FY2011 (Figure 2).
    To receive funding from the MCC as of FY2014 a country must meet four independent
criteria(MCC, 2013b):

   1. It must qualify as a Low Income Country (LIC) or Low-Middle Income Country (LMIC)
      by having a GNI per capita under $1,965 or $4,085 respectively.

   2. It must not be restricted from receiving U.S. aid by Congressional statute. Countries may
      be restricted for poor human rights records or for being designated a state sponsor of
      terror.

   3. It must perform sufficiently well on a set of twenty (originally sixteen) independently
      compiled governance indicators.


                                                                                              12
                                           FIGURE 1. SOURCES OF U.S. FOREIGN AID, FY2011



                                  5%
                                                       2%
                                                5%




                                7%
                                                                                    37%                    USAID
                                                                                                           State
                                                                                                           Agriculture/HHS
                          10%
                                                                                                           Treasury
                                                                                                           MCC
                                                                                                           Peace Corps/Other
                                                                                                           Defense




                                                35%




         Figure 2: Sources of US foreign assistance. Data reflects total disbursements for FY2011 out
Note: Dataof  $30.964
           reflects          billion spent
                    total disbursements         onoutforeign
                                        for FY2011    of $30.964assistance
                                                                 billion spent on(USAID         Economic
                                                                            Analysis and Data Services,
                                                                                  foreign assistance
         2012).
Source: USAID Economic Analysis and Data Services



             4. It must submit a compact proposal deemed worthy by the MCC’s board of directors.

         A country is determined to be a “candidate country” if it passes the first two criteria by qual-
         ifying as a LIC/LMIC and not being subject to congressional restriction. The performance of
         these candidate countries on twenty governance indicators (Table 1) is gauged against the per-
         formance of income group peers, with LICs being compared against other LICs and LMICs
         against other LMICs.
             Although transparent, the process for determining eligibility is complicated and has changed
         over the years. In FY2014, the twenty indicators are split into three distinct groups: Economic
         Freedom, Ruling Justly, and Investing in People. To be eligible, a country must pass certain
         threshold values on at least ten of the twenty indicators, and must pass at least one threshold
         value in each category. These threshold values may be absolute minimums or median values.
         Additionally, countries must score over the median on the control of corruption indicator, and
         above the absolute threshold on either the civil liberties or the political rights indicator. Missing
         indicator values are judged to be failing, although the MCC historically has made efforts to fill
         in missing values from a variety of sources.
             In addition to the objective eligibility rules, the MCC reserves the right to exercise its own
         discretion in determining the final list of countries which pass this stage. In the past, the MCC
         has used this discretionary power sparingly to exclude countries that, for political reasons, are
         deemed inappropriate recipients of US aid such as China, India, and Bhutan and to include
         countries which are very close to qualifying.


                                                                                                                               13
     Once deemed eligible for MCC funds, countries are invited to submit funding proposals.
Submitted proposals are reviewed by the MCC and those found suitable are then approved
and signed by the MCC’s board of directors along with the leaders of the country and turned
into compacts — legally binding documents specifying the amount of aid to be given, the uses
to which it will go, and the performance criteria that the country must meet in its use of the
money. According to the MCC’s stated guidelines, countries may submit proposals for any
projects which are both growth enhancing and poverty reducing.
     In addition to compacts, the MCC also distributes a limited portion of the funds appropriated
to it to countries at or near the threshold for receiving funds with the purpose of improving these
countries’ scores on their MCC indicators. Access to funds through this program, known as the
“Threshold Program,” is solely at the discretion of the MCC. Table 2 summarizes the history of
MCC eligibility and compacts.
     Since the MCC began operations, several changes have been made to the selection method-
ology. By far the most significant changes involve the addition and exclusion of indicators.
A business start-up hybrid indicator was introduced in 2008, combining the cost of starting a
business and days to start a business indicators, along with a natural resource management indi-
cator. Several indicators were adjusted in 2012, with voice and accountability dropped in favor
of freedom of information, natural resource protection replacing natural resource management,
and indicators tracking child health and gender in the economy added. Other major revisions in
FY2012 included the addition of a democracy hard hurdle, requiring that countries pass either
the political rights or civil liberties indicator, and the loosening of the requirement that countries
pass half the indicators in each thematic category. As of FY2012, countries need only pass ten
of the twenty indicators overall in order to obtain eligibility (Dunning, 2013; MCC, 2013b).
While the exact rules have changed several times since 2004, the MCC has always used sharp
eligibility thresholds per indicator.


3     Existing Evidence of MCC Effect
3.1    Plausibility of the MCC Effect
For the MCC effect to pass the basic litmus test of plausibility, the size of the reward must be
large enough that countries modify their behavior to gain access to the funds. Furthermore, the
probability of receiving the reward must be sufficiently high that countries deem the possibility
of receiving the award worth the effort of reforming. While a subjective judgement, the MCC
easily passes these two hurdles. Looking at the sample of compact countries that report total aid
and government expenditure in the World Development Indicators (World Bank, 2013), Figure
3 shows MCC funds have caused a substantive impact in compact countries. MCC annual
funding averages 4% of total government expenditure and 14% of net aid and development
assistance received. Furthermore, with a relatively small pool of compact eligible countries, the
odds of gaining access to MCC funds once eligible appear high enough to merit the attention of
candidate countries. As of FY2014, 25 of 28 eligible countries have signed compacts with the
MCC (Table 2).



                                                                                                   14
                              TABLE 2. COUNTRIES ELIGIBLE FOR MCC COMPACTS AND THRESHOLDS
                                            First Fiscal Year Eligible                                 Year Signed
                    Country             For Compact        For Threshold                     Compact         Threshold Program
            Albania                                              2004                                              2006
            Armenia                         2004                                               2006
            Benin                           2004                                               2006
            Bolivia                         2004
            Burkina Faso                    2006                 2005                          2008                  2005
            Cape Verde                      2004                                               2005
            Colombia                        2009
            East Timor                      2006                 2004                                                2010
            El Salvador                     2006                                               2006
            Georgia                         2004                                               2005
            Ghana                           2004                                               2006
            Guyana                                               2005                                                2007
            Honduras                        2004                                               2005                  2013
            Indonesia                       2009                 2006                          2011                  2006
            Jordan                          2007                 2006                          2010                  2006
            Kenya                                                2004                                                2007
            Kyrgyzstan                                           2006                                                2008
            Lesotho                         2004                                               2007
            Liberia                         2013                 2009                                                2010
            Madagascar                      2004                                               2005
            Malawi                          2007                 2005                          2011                  2005
            Mali                            2004                                               2006
            Mauritania                                           2008
            Moldova                         2007                 2006                          2010                  2006
            Mongolia                        2004                                               2007
            Morocco                         2005                                               2007
            Mozambique                      2004                                               2007
            Namibia                         2006                                               2008
            Nepal                                                2012
            Nicaragua                       2004                                               2005
            Niger                           2013                 2007                                                2008
            Paraguay                                             2005                                                2006
            Peru                                                 2007                                                2008
            Philippines                                          2005                          2010                  2006
            Rwanda                                               2007                                                2008
            Sao Tome and Principe                                2004                                                2007
            Senegal                         2004                                               2009
            Sierra Leone                    2013
            Sri Lanka                       2004
            Tanzania                        2006                 2004                          2008                  2006
            Gambia                          2006
            Uganda                                               2004                                                2007
            Ukraine                         2007                 2006                                                2006
            Vanuatu                         2004                                               2006
            Yemen, Rep.                                          2004
            Zambia                          2009                 2005                          2012                  2006

            Notes:
Table 2: Bolivia
          Countries
                 and Ukraineeligible
                              were droppedforfrom MCC          compacts
                                                   the list of MCC-eligible    andinthreshold
                                                                            countries   FY09 after beingprogram.          Bolivia
                                                                                                         selected in previous years. and Ukraine
were dropped      from the list of eligible countries in FY2009 after being selected in previous years.
         East Timor was downgraded from Compact Eligible to Threshold Eligible in FY12
         Niger had its Threshold status revoked in FY10, but was selected as Compact Eligible in FY13 after improvement on many indicators
East Timor
         Yemenwashad itsdowngraded           from
                         Threshold Eligible status     compact
                                                   revoked   in FY09 eligible to threshold eligible in FY2012. Niger had
its threshold    status
         The Compacts        revokedandin
                         of Madagascar      MaliFY2010,
                                                   were terminatedbut   was selected
                                                                   prematurely                as compact
                                                                                due to non-democratic developments eligible in FY2013 after
         Honduras had its 2005 Compact partially terminated in 2009, but began a Threshold Program in 2013
improvement on many indicators. Yemen had its threshold eligible status revoked in FY2009.
The compacts of Madagascar and Mali were terminated prematurely due to non-democratic de-
velopments. Honduras had its 2005 compact partially terminated in 2009, but began a threshold
program in 2013.


                                                                                                                                           15
                    FIGURE 2. MCA AID AS A PERCENTAGE OF TOTAL AID AND GOVERNMENT EXPENDITURE, 2011



       Mongolia


        Tanzania


         S
         Senegal
               l


        Namibia


    Mozambique


        Morocco


       Mongolia


        Moldova


           Mali


         Lesotho


          Jordan


     El Salvador


    Burkina Faso

                   0%         5%            10%            15%            20%           25%            30%     35%

                                     MCC/Total Govt Expenditure
                                                      p                MCC/Total Net Aid



 Figure 3: MCC compacts as a percentage of recipient total aid and governmentexpenditures.
Note: MCC aid amount calculated as total compact budget divided by five-year horizon to create annual number
Sources: MCC,World Bank
 MCC compacts calculated as total compact budget divided by five-year horizon to create an
 annual number (MCC, World Bank 2013). Only compact countries with aid data reported in the
 World Development Indicators are included.




                                                                                                                     16
3.2    Qualitative Evidence
There is significant qualitative evidence supporting the existence of an MCC incentive effect.
Senior government officials in MCC candidate countries have stated in interviews that their
countries have taken note of the MCC standards and are working towards reform (MCC, 2013a;
World Bank, 2007; Parks and Rice, 2013). There is also some evidence of an MCC “signaling
effect,” where other sources of aid and capital increase their efforts in countries that become
MCC eligible (Dreher, Nunnenkamp and Ohler, 2010).
     Parks and Rice (2013) and Parks (forthcoming) provide the most comprehensive qualitative
evidence on the MCC’s impact on countries’ behavior. Using a cross-country survey of 640
individuals with connections to the MCC’s aid efforts, both in the United States and across
100 low and low-middle income countries, their results indicate a strong MCC effect, particu-
larly in the areas of corruption, education, and fiscal policy. Respondents cite MCC eligibility
criteria as one of the three most influential external judgments of government performance,
behind the United Nation’s Millennium Development Goals and ahead of the World Bank’s
Doing Business indicators. Parks (forthcoming) constructs a database of more than 14,000
country-policy-domain-year observations that measures whether and how governments change
their policy behavior in order to achieve or maintain MCC eligibility and finds significant ev-
idence for MCC-inspired policy responses – defined as any discernible impact of the MCC
eligibility criteria on the policymaking process
     Of note, both Parks and Rice (2013) and Parks (forthcoming) find a positive correlation be-
tween MCC eligibility status and attention paid to achieving or maintaining eligibility. Parks
(forthcoming) finds that 65% of MCC-inspired policy responses happen in compact and thresh-
old countries and the remaining 35% happen in countries that have not qualified for compact or
threshold assistance. Threshold and compact countries therefore focus more closely on main-
taining eligibility than candidate countries focus on achieving it. This fact, and the reported
importance of the Millennium Development Goals and Doing Business indicators, suggest that
the MCC may influence policy priorities in ways not directly related to the sharp eligibility rules
originally emphasized by proponents of the MCC’s design. Moreover, if true, our regression
discontinuity estimates may understate the true impact of the MCC on reform given the lack of
a sharp discontinuity in incentives.
     The MCC itself has also gathered a body of anecdotal evidence indicating that it has exerted
an influence over the domestic policy agendas of several developing countries (MCC, 2013a).
For instance, MCC (2013a) point to the success of Georgia in overhauling a variety of policies
related to the ease of starting and running a business with the goal of improving their busi-
ness start-up score. The World Bank, which publishes the Doing Business indicators used in
calculating business start-up, credits MCC for an increase in awareness of the metric in the de-
veloping world (World Bank, 2007). In one notable example of potentially MCC-driven reform,
Sierra Leone passed only six MCC indicators in 2006, and reached out to the MCC in order to
formulate a strategy to improve its performance. Through an expansion of its anti-corruption
agency, an increase in their public health expenditure, and a successful immunization campaign,
Sierra Leone passed the MCC scorecard in 2012 and was declared eligible to pursue a compact
in fiscal year 2013 (MCC, 2013a). While it is impossible to prove these reforms would not have
occurred absent the MCC, a wide range of qualitative and anecdotal evidence suggests that spe-


                                                                                                17
cific countries have responded to MCC incentives. Yet the qualitative evidence says little about
the size and breadth of MCC-inspired reform.

3.3   Quantitative Evidence
In a 2006 version of this paper, Johnson and Zajonc (2006) perform the first quantitative evalu-
ation of the purported MCC effect. With data available only through 2004, Johnson and Zajonc
(2006) select 2002 — the year the MCC was announced — as the earliest year any MCC ef-
fect could be present in the data. Using this timeframe, Johnson and Zajonc (2006) evaluate
whether low income candidate countries were more likely to reform between 2002 and 2004
than between 2000 and 2002, controlling for changes in time trends using the reform patterns of
low-middle income countries that did not face an explicit MCC incentive until 2006 (Figure 1).
These difference-in-differences results provide limited evidence of an anticipatory MCC effect.
Potential recipients of MCC funds improved 25 percent more indicators after the announcement
of the MCC than before it, compared LMICs.
    While suggestive, the results in Johnson and Zajonc (2006) are not conclusive. They report
a number of positive and negative estimates and only report statistically significant results for
some specifications and definitions of reform. The results are also extremely early, especially
given that many of the MCC indicators are lagging, with reform measures often taking years to
appear in the data. The first scorecards — official evaluations of each country’s performance
on the indicators – were not released until 2004, so countries would not have known in 2002
which indicators required improvement. Given these facts, any improvement in the performance
of candidate countries in 2003 and 2004 can be described as anticipatory at best, and difficult
to link directly to a fledgling MCC. Nevertheless, the framework established by Johnson and
Zajonc (2006) provides a useful methodological baseline.
    Ohler, Nunnenkamp and Dreher (2011) apply the same difference-in-differences approach
as Johnson and Zajonc (2006) to a wider swath of available data, but limit the scope of their
analysis to one indicator, control of corruption. They also use a different method of separat-
ing countries into treatment and control groups, selecting as a treatment group those countries
whose control of corruption scores place them in the second quartile. They argue that sec-
ond quartile scores define a set of countries that perform below the MCC threshold, but not so
poorly that achieving MCC standards would be unreasonably difficult. The control group is
thus populated by countries that have already exceeded the MCC standard as well as “hopeless
cause” countries, both of which have little incentive to attempt improvement in their indicators.
Ohler, Nunnenkamp and Dreher (2011) conclude that the MCC did have a positive impact on
the treatment group. However, running the same models over various 2-4 year intervals, they
determine that the incentive to fight corruption has been weakened over time. They posit that
this weakening is a result of uncertainty about the timing and quantity of MCC aid, especially in
the wake of a difficult start-up period for the agency in 2004 and 2005, although this interpreta-
tion is speculative. Our results do not confirm an effect on control of corruption (Figures 5 and
11), although we do not replicate the Ohler, Nunnenkamp and Dreher (2011) analysis exactly.
    Aune et al. (2013) expand the methodology used by Johnson and Zajonc (2006) to cover
subsequent years of data, as well as several alternative definitions of a treatment group. Rather
than centering their data around the announcement of the MCC in 2002, they also use the es-


                                                                                               18
tablishment of the MCC in 2004 as their focal point, as we do in this paper, and independently
recreate all indicators from original third party sources. They report results from five treatment
group definitions: countries bordering on eligibility, countries that pass the control of corrup-
tion indicator, countries participating in an MCC threshold program, countries in the middle
range of government expenditures, and a hand-selected group of countries determined qualita-
tively to have experienced the MCC effect. After running hundreds of difference-in-differences
comparisons, they are unable to find compelling evidence for an MCC incentive effect. Of
645 possible instances of statistical significance, 38 are are positive and statistically significant,
while a comparable number, 32, are negative and significant.
    The results of Johnson and Zajonc (2006), Ohler, Nunnenkamp and Dreher (2011), and
Aune et al. (2013) contain some suggestive evidence in favor of an MCC effect, but are largely
inconclusive. All three report statistical significant results only after testing a wide range of
specifications and for varying definitions of treatment groups, indicators, and timeframes. This
paper provides a comprehensive reanalysis of the MCC effect.


4     Empirical Strategy
4.1    Setup
Our goal is to estimate the causal effect of MCC incentives on candidate countries reform pat-
terns. That is, had candidate countries not faced an MCC incentive, would they have reformed
differently?
     We can make this more precise by defining causal effects in terms of potential outcomes,
following Neyman (1923) and Rubin (1978). Let Yi (1) give the outcome for country i if they
face an MCC incentive and Yi (0) give the outcome if they don’t. Potential outcomes Yi (1) and
Yi (0) are linked to the observed variables Yi by Yi = Yi (Wi ), where Wi indicates whether a country
faces an incentive or not. Assuming all candidate countries face an incentive, we only ever
observe Yi (1) since Wi = 1. Because we cannot observe Yi (0) and Yi (1) simultaneously there is
no direct way to observe the MCC incentive effect Yi (1) Yi (0) for an individual country.
     There are various interesting groups of countries for which we might want to estimate the
causal effect of the MCC incentive, but a logical starting point is to estimate the average effect
on all countries that experience an MCC incentive,
                                 tATT = E [Yi (1)   Yi (0) | Wi = 1] .                            (1)
In the causal inference literature this is the average treatment effect on the treated — the causal
effect on the population that actually received the treatment. In this paper we define that group
as all candidate countries, although Ohler, Nunnenkamp and Dreher (2011), Aune et al. (2013),
and our regression discontinuity estimates assume different groups of countries experience an
incentive effect.

4.2    Difference-in-Differences
Johnson and Zajonc (2006) propose estimating (3) using a difference-in-differences strategy.
Let the outcome Yi1 be reform on an indicator between any two years post-MCC and Yi0 be the


                                                                                                   19
rate of reform pre-MCC. The difference-in-differences estimate of the MCC effect is then
                                    1                      1
                                    N1 i:WÂ                N2 i:WÂ
                          tˆATT =              Yi1   Yi0              Yi1   Yi0 .
                                          i =1                   i =0

That is, we estimate the MCC effect as the difference in reform for candidate (treated) countries
before and after the MCC was created minus the difference in reform rate for non-candidate
(control) countries before and after the MCC was created. Depending on the measure of out-
come — a rate of reform or indicator level — this can be viewed as a difference-in-differences
or difference-in-difference-in-differences estimate. The estimate subtracts any fixed country ef-
fects (the change rather than level), any fixed time trends (the first pre-post difference), and any
change in time trends (the treatment/control difference).
    The key assumption is that absent the MCC, candidate countries would have increased their
reform equivalently to non-candidate countries. Formally,

                    E [Yi1 (0)   Yi0 (0) | Wi = 1] = E [Yi1 (0)    Yi0 (0) | Wi = 0] .            (2)

This assumption allows us to solve for the reform rate absent an incentive for candidate coun-
tries, E [Yi1 (0) | W = 1], which is fundamentally unobservable. The assumption would be vio-
lated if there were other policies, besides that MCC, that affected candidate and non-candidate
countries differentially.
    In this paper, we follow a slightly different strategy than a traditional difference-in-differences
design in order to make the basis for our calculations clearer. We plot the reform rate for LICs
and LMICs between the first year an indicator was used (mostly 2004) and each subsequent
year, subtracting out the reform rate for middle income (control) countries — countries with
GNI per capital below $10,000 that do not face an MCC incentive. This allows us to compare
pre-post trends visually. We also report adjusted differences that control linearly for two pre-
MCC periods of reform. Formally, these plots embed the assumption that reform after 2004
absent the MCC, Yi1 (0), is independent of candidacy status conditional on observed baseline
reform patterns, Yi1 (0) ? Wi | Yi0 .

4.3    Regression Discontinuity Design
Our second empirical strategy relies on the MCC’s unique eligibility rules. We compare reform
rates for ineligible countries that fall just below and just above the MCC eligibility thresholds
and therefore experience different incentives to reform but are otherwise similar. While the
exact incentive effects created by the MCC eligibility rules are complex, we examine each
indicator individually.
    Using discontinuities treatment rules to identify causal effects dates back to Thistlethwaite
and Campbell (1960). However the idea has received an explosion of attention in economics
after Hahn, Todd and der Klaauw (2001) formalized regression discontinuity designs in the
language common to program evaluation. Imbens and Lemieux (2008) and Lee and Lemieux
(2009) provide accessible reviews of this literature. Imbens and Zajonc (2011) give meth-
ods, to estimate regression discontinuity designs with multiple forcing variables, such as the


                                                                                                  20
multi-dimensional MCC eligibility rules, but these methods come at the expense of significant
complexity.
    Adopting the classic scalar regression discontinuity setup, let Xit represent a baseline indi-
cator level in year t and Yit represent the subsequent reform. In Section 6 we define the outcome
as change in the indicator over three subsequent years, normalized by the baseline level. Let
ct be the eligibility cutoff in year t for a particular indicator. Then regression discontinuity de-
sign identifies the average causal effect of the treatment for countries at the treatment boundary
(Xit = ct ) by comparing countries e above and below the treatment boundary as e goes to zero.
Assuming the conditional regression functions of the potential outcomes E [Yit (0) | Xit = x] and
E [Yit (1) | Xit = x] are continuous in x, countries just above and below the discontinuity have
the same average potential outcomes Yit (0) and Yit (1) but differ by the incentive they actually
experience, Wit . Due to the complexity of MCC rules, Wit should be interpreted loosely as
“experiences a higher MCC incentive.”
    The average causal effect of the treatment for countries at the treatment boundary is identi-
fied by taking the limits from above and below,

                   tSRD = E [Yit (1) Yit (0) | Xit = ct ]                                       (3)
                        = E [Yit | Wit = 1, Xit = ct ] E [Yit | Wit = 0, Xit = ct ]
                        = lim E [Yit | Xit = x] lim E [Yit | Xit = x]
                            x#ct                  x"ct

where the final equality follows from continuity (Hahn, Todd and der Klaauw, 2001). It is
in general not possible to identify broader effects, such as the average treatment effect on the
treated countries.
     The practical problem becomes how to estimate the two limits limx#ct E [Yit | Xit = x] and
limx"ct E [Yit | Xit = x] given the limited data near the boundary. Hahn, Todd and der Klaauw
(2001) propose estimating the limits by local linear regression, to adjust for differences when
including data away from the cutoff. With a rectangular kernel, local linear regression amounts
to predicting both limits from a linear regression on a subset of countries within the bandwidth h
of the cutoff. Imbens and Kalyanaraman (2008) recommend local linear regression with an edge
(triangular), rather than rectangular, kernel and derive an optimal, data-dependent, bandwidth
selection rule. We follow this recommendation and present our results graphically (Figures 10,
11, and 12).


5    Data
As described previously, the MCC currently uses 20 indicators drawn from a number of inde-
pendent sources. Table 1 describes these indicators, their sources, and the direction of improve-
ment. Our primary dataset consists of the historical performance of every country on every
MCC indicator currently used, as released in November 2013 by MCC’s Open Data initiative.
Where the MCC’s historical data has gaps, particularly around indicators that are no longer used
or that have been rescaled, we have augmented their database with datasets obtained directly
from the independent bodies that produce the indicators.



                                                                                                 21
                        TABLE 3. SUMMARY STATISTICS FOR LOW, LOW-MIDDLE, AND MIDDLE INCOME COUNTRIES
                      Indicator                   Obs          Mean       Std. Dev.      Min            Max          First Year
    Days to Start a Business                      1168         43.58        64.40        2.00          694.00           2003
    Cost to Start a Business                      1168         66.06       132.75        0.29         2051.46           2003
    Voice and Accountability                      1344         -0.23         0.79        -2.21           1.31           2000
    Civil Liberties                               1224         35.64        13.09        1.00           58.00           2002
    Control of Corruption                         1335         -0.44         0.60        -1.91           1.56           2000
    Education Expenditure                          510          1.87         0.87        0.16            6.37           2000
    Fiscal Policy (Actual year)                   1431         -1.76         6.78       -24.00         125.44           2000
    Girls' Primary Education Completion Rates      897         82.35        24.12       12.57          138.77           2000
    Government Effectivenesss                     1333         -0.41         0.60        -2.32           1.26           2000
    Health Expenditures                           1339          3.40         2.33        0.58           21.57           2000
    Immunization Rates                            1450         83.67        16.17       18.50           99.00           2000
    Inflation                                     1447          7.85        13.49       -10.04         325.03           2000
    Political Rights                              1224         23.11        11.18        0.00           39.00           2002
    Regulatory Quality                            1333         -0.36         0.64        -2.68           1.54           2000
    Rule of Law                                   1342         -0.40         0.67        -1.96           1.38           2000
    Trade Policy                                  1367         68.26        12.48        0.00           90.00           2000
    GNI Per Capita Growth                         1027          3.69        14.98       -49.96         445.97           2000


    Note: Data reflects FY14 timeseries data. LIC/LMIC status determined by LIC/LMIC determination by MCC in FY06.
Table 3: Summary statistics for low, low-middle, and middle income countries. Data reflects
FY14 time-series data. LIC/LMIC status determined by LIC/LMIC by MCC in FY06 thresh-
olds and MIC is defined as countries with GNI per capital below $10,000. Excludes countries
prohibited from receiving MCC funds between 2004 and 2012.

    In addition to this FY2013 data, we also examine what we call “vintage data,” the datasets
used in past years to make determinations about a country’s eligibility. As the values of many
indicators are regularly revised after their initial release, we use the original data in order to
make a determination on whether a particular country faced an incentive to improve on any
particular indicator, even if that incentive was based on incomplete or faulty data. We also
consider a supplementary dataset composed of basic country-level data from the World Bank’s
World Development Indicators. Table 3 gives summary statistics for the key variables in our
dataset.
    While the MCC indicators are selected in part for their breadth of coverage, not all indicators
cover all countries. There is also considerable variation in the length of the time-series for
each variable. For example, Freedom House’s political rights and civil liberties indicators are
available back to 1973 and are updated yearly. In contrast, natural resource management is only
available back to 2004.
    For our analysis, we drop a number of observations. We consider only the set of indica-
tors which existed in 2008 or earlier. We also exclude all countries with GNI per capita above
$10,000 in 2006. We use 2006 as our determining year for this calculation, as this was the first
year the MCC formalized a definition of LMICs. Because most data is not available for 2013,
we do not include any 2013 data in our analysis. With these restrictions, we are left with 102
countries. Because of missing data, however, fewer countries are available for many indicators.
In addition, we generally exclude countries that are statutorily restricted from receiving assis-
tance. These countries neither have an incentive to improve their indicators or are plausible
control countries for those that do.



                                                                                                                                  22
                                                                                                                 




                                 



                                 



                            
                                                                                                
                                                                                               


Figure 4: Average reform all FY2004 indicators for low income (red) and low-middle income
(blue) candidate countries compared to middle income non-candidate countries (y = 0). Reform
is the change between the current year and 2004. Before averaging, indicators are normalized
to have standard deviation one in the baseline year and signed such that positive values are an
improvement. Bars and crosses represent 90% and 95% confidence intervals. Adjusted reform
controls for two pre-MCC periods of reform.

6                                      Results
6.1                                    Difference-in-Differences Style Estimates
The large number of indicators and years makes it difficult to concisely summarize our empirical
results. Figure 4 gives the top line difference-in-differences style result. We plot the change
between 2004 and each year for LICs and LMICs compared to MICs (y = 0), averaging across
all indicators. To make the indicators comparable, we scale all the indicators to have a standard
deviation of one in 2004 and change signs when necessary so that a positive value always
represents an improvement. The left hand pane gives the unadjusted estimates and the right
hand pane gives adjusted estimates that control for two prior values of reform.
     As can be seen, LICs and LMICs reform significantly faster after 2004 than the non-
candidate middle income countries (left panel). Two years after the MCC began operations,
the unadjusted reform rates are around 0.15 to 0.25 standard deviations higher for both LICs
and LMICs than MICs. Both 90% and 95% confidence intervals, represented by ticks and
bars, do not cover zero for most years. However, the adjusted results tell a less compelling
story. Controlling linearly for two pre-MCC periods of reform (2002, 2003) eliminates statis-
tically significant difference between LIC/LMICs and MICs in the post-MCC years, although
the point estimates remain positive. We cannot reject zero effect in any year at the 95% level.
However, we also cannot reject economically significant effects. While the point estimates hint
at a positive MCC effect, various control strategies, such as controlling linearly for GNI per
capita, changed these estimates significantly.
     Figures 5, 6, 7, and 8 plot similar analyses for individual indicators. For specific years, the
unadjusted results show positive and statistically significant results for some indicators. How-
ever, there are few clear patterns in the adjusted estimates. Several point estimates are positive
and several are negative. Cost of starting a business, an indicator added as a component of busi-


                                                                                                                                                     23
ness startup in 2006, flips sign when controlling for baseline results, indicating the difficulty of
using middle income countries as controls for low income countries.
    For completeness, Figure 9 gives a similar plot for GNI per capita growth — an ultimate
goal of MCC-driven reform. We find no statistically significant effect, although the confidence
intervals cover all remotely plausible effects. The financial crisis of 2008 further complicates
this analysis.

6.2    Regression Discontinuity Design Estimates
Perhaps the most compelling result in this paper is given by Figure 10. Here we plot regression
discontinuity estimates for all years and indicators in a single graph. The x-axis measures the
distance to the eligibility threshold for each indicator. The y-axis measures the subsequent three
year change in the indicator. Each point represents a currently ineligible country, indicator, and
baseline year. Both the vintage indicators (x-axis) and the time-series reform indicators (y-axis)
are normalized so that all they have standard deviation one in the baseline year and are signed
such that a positive value is an improvement. The smoothed line is a local linear regression
for each side of the cutoff with an edge kernel and bandwidth selected following Imbens and
Kalyanaraman (2008).
     If countries that just fail the eligibility rule have a greater incentive to reform than countries
that just pass the eligibility threshold, we’d expect the smooth lines to jump down at 0, moving
left to right. We see no such effect. Averaging across indicators and years, our best estimate for
the jump is 0.01 standard deviations (0.1 standard error). In other words, we find no evidence
that countries that just fail to meet eligibility thresholds reform faster in subsequent years than
countries that just pass the eligibility thresholds. We can reject effects greater than 0.2 standard
deviations at the 5% level.
     Figures 11 and 12 plot similar analyses for individual indicators. The majority of estimates
are statistically insignificant from zero. The two statistically significant effects, government
effectiveness and inflation, go in opposite directions. Our estimated impact of government
effectiveness is negative, while our estimated effect on inflation in positive. These results are
likely due to statistical chance and are not robust to larger and smaller bandwidths.
     Overall, our regression discontinuity results do not support a large, broad-based MCC in-
centive effect that is tied closely to the sharp eligibility cutoffs. This could be because the effect
is small or present only in specific countries. It could also be because our simplified regression
discontinuity design, which focuses only on a single indicator at a time, does not capture the
complicated incentive effects generated by MCC eligibility rules. Nevertheless, the lack of any
clear effect in the aggregated result given by Figure 10 suggests that the MCC incentive effect
is modest.


7     Conclusion
The MCC is based on the premise that 1) aid will be more effective when given to well-governed
countries and 2) countries will respond to eligibility rules by pursuing sound policies. While a
large empirical literature has focused on the relationship between policies and aid effectiveness,

                                                                                                    24
                                                                                                              
                              

                              
 



                              

                         

                         

                         
                                                                                             
                                                                                            

                                                                                                              
                              
 




                              


                              


                         


                         
                                                                                             
                                                                                            

                                                                                                              
 




                              


                              


                         


                         
                                                                                             
                                                                                            

                                                                                                              
                              
 




                              



                         



                         
                                                                                             
                                                                                            


Figure 5: Reform since indicator introduction for low income (red) and low-middle income
(blue) candidate countries compared to middle income non-candidate countries (y = 0). Re-
form is the change between the current year and the year the indicator was added. Indicators
are normalized to have standard deviation one in the baseline year. The sign of improvement
is given in the y-axis label. Bars and crosses represent 90% and 95% confidence intervals.
Adjusted reform controls for two pre-MCC periods of reform.

                                                                                                                                                   25
                                                                                                                              
                                    




                                    


                                    


                               


                                                                                                             
                                                                                                          

                                                                                                                              





                                    


                                    


                                    


                               


                                                                                                             
                                                                                                           

                                                                                                                              


                                    





                                    


                               


                               
                                                                                                             
                                                                                                          





                                                                                                                              


                                    



                                    



                               
                                                                                                             
                                                                                                           


Figure 6: Reform since indicator introduction for low income (red) and low-middle income
(blue) candidate countries compared to middle income non-candidate countries (y = 0). Re-
form is the change between the current year and the year the indicator was added. Indicators
are normalized to have standard deviation one in the baseline year. The sign of improvement
is given in the y-axis label. Bars and crosses represent 90% and 95% confidence intervals.
Adjusted reform controls for two pre-MCC periods of reform.

                                                                                                                                                                    26
                                                                                      


                           


                           


                      


                      

                                                                                             
                                                                                            

                                                                                                              
                           





                           


                           


                      


                                                                                             
                                                                                            

                                                                                                              



                           





                           


                      


                                                                                             
                                                                                            

                                                                                                              

                           





                           



                      



                                                                                             
                                                                                            


Figure 7: Reform since indicator introduction for low income (red) and low-middle income
(blue) candidate countries compared to middle income non-candidate countries (y = 0). Re-
form is the change between the current year and the year the indicator was added. Indicators
are normalized to have standard deviation one in the baseline year. The sign of improvement
is given in the y-axis label. Bars and crosses represent 90% and 95% confidence intervals.
Adjusted reform controls for two pre-MCC periods of reform.


                                                                                                                                                        27
                                                                                         


                               


                               


                          


                          
                                                                                              
                                                                                             

                                                                                                               
                               





                               


                          


                          

                                                                                              
                                                                                             

                                                                                                               

                               





                               


                               


                          

                                                                                              
                                                                                             

                                                                                                               





                               


                               


                          


                          

                                                                                              
                                                                                             


Figure 8: Reform since indicator introduction for low income (red) and low-middle income
(blue) candidate countries compared to middle income non-candidate countries (y = 0). Re-
form is the change between the current year and the year the indicator was added. Indicators
are normalized to have standard deviation one in the baseline year. The sign of improvement
is given in the y-axis label. Bars and crosses represent 90% and 95% confidence intervals.
Adjusted reform controls for two pre-MCC periods of reform.

                                                                                                                                                    28

                        
                                                                                                                                     
                                                                                                                                




                                                                                                                                                    





                             



                              



                        
                                                                                                                                     
                                                                                                                                


Figure 9: Change in GNI per capital growth for low income (red) and low-middle income (blue)
candidate countries compared to middle income non-candidate countries (y = 0). Change is the
difference in growth between the current year and 2004. Bars and crosses represent 90% and
95% confidence intervals. Adjusted growth controls and two pre-MCC growth rates.




                                                                                                                                                            
                              




                                                                        
                                                                                                                                                               

                                                                        


                                                                        


                                                                        


                                                                        


                                                                                                                                                                     
                                                                                                        

Figure 10: Three year reform pooling all indicators vs. distance to the eligibility cutoff for
candidate countries between 2004 and 2010. All indicators are normalized such that 0 is the
cutoff and positive values are an improvement. Red dots represent countries failing the eligi-
bility threshold (incentivized) and blue dots represent those already passing. The RD estimate
is in the upper right hand corner, with standard error in parentheses. The optimal Imbens and
Kalyanaraman (2008) bandwidth of the local linear estimate is given by h.



                                                                                                                                                                                                29
                                                                                                                                                                                                             




                                                                                                                          

                                                                                                                                                                         
                                                                                                                                                                                                                          

                                                                                                                                                                         


                                                                                                                                                                         


                                                                                                                                                                        


                                                                                                                                                                        


                                                                                                                                                                                                                  
                                                                                                                                                




                                                                                                                          





                                                                                                                                                                                                            
                                                                                                                                                                         
                                                                                                                                                                                                                          

                                                                                                                                                                         


                                                                                                                                                                         


                                                                                                                                                                        


                                                                                                                                                                        


                                                                                                                                                                                                                  
                                                                                                                                             
                                                                                                                          




                                                                                                                                                                                                             
                                                                                                                                                                         
                                                                                                                                                                                                                         





                                                                                                                                                                         


                                                                                                                                                                         


                                                                                                                                                                        


                                                                                                                                                                        


                                                                                                                                                                                                                  
                                                                                                                                                     



                                                                                                                                                                                                              





                                                                                                                          




                                                                                                                                                                         
                                                                                                                                                                                                                         

                                                                                                                                                                         


                                                                                                                                                                         


                                                                                                                                                                        


                                                                                                                                                                        


                                                                                                                                                                                                                  
                                                                                                                                                   



Figure 11: Three year reform by indicator vs. distance to the eligibility cutoff for candidate
countries between 2004 and 2010. Indicators are normalized each year such that 0 is the cutoff.
Red dots represent countries failing the eligibility threshold (incentivized) and blue dots repre-
sent those already passing. The RD estimate is in the upper right hand corner, with standard
error in parentheses. The optimal Imbens and Kalyanaraman (2008) bandwidth of the local
linear estimate is given by h.

                                                                                                                                                                                                                                                   30
!

                                                                                                                                                                                                           
                                                                                                                                                                   
                                                                                                                                                                                                                       




                                                                                                                         
    




                                                                                                                                                                   


                                                                                                                                                                   


                                                                                                                                                                  


                                                                                                                                                                  


                                                                                                                                                                                                                
                                                                                                                                                    



                                                                                                                                                                                                            
    




                                                                                                                                                                   
                                                                                                                                                                                                                        




                                                                                                                         
                                                                                                                                                                   


                                                                                                                                                                   


                                                                                                                                                                  


                                                                                                                                                                  


                                                                                                                                                                                                                
                                                                                                                                                    
                                                                                                                         




                                                                                                                                                                                                            
                                                                                                                                                                   
                                                                                                                                                                                                                         
    




                                                                                                                                                                   


                                                                                                                                                                   


                                                                                                                                                                  


                                                                                                                                                                  


                                                                                                                                                                                                                
                                                                                                                                                



                                                                                             
                                         
                                                                                                 
    




                                         


                                         


                                         


                                         


                                                                                                     
                                                             



    Figure 12: Three year reform by indicator vs. distance to the eligibility cutoff for candidate
    countries between 2004 and 2010. Indicators are normalized each year such that 0 is the cutoff.
    Red dots represent countries failing the eligibility threshold (incentivized) and blue dots repre-
    sent those already passing. The RD estimate is in the upper right hand corner, with standard
    error in parentheses. The optimal Imbens and Kalyanaraman (2008) bandwidth of the local
    linear estimate is given by h.

                                                                                                                                                                                                                                                     31
few quantitative attempts have been made evaluate the second claim. We seek to answer the
question: can foreign aid can create an incentive for good governance?
    By exploiting features of the MCC’s candidacy and eligibility rules and variation before and
after the MCC was created, we estimate the MCC incentive effect on MCC indicators using
a difference-in-differences and regression discontinuity design strategy. While our difference-
in-differences estimates are positive, they are not statistically significant once controlling for
baseline differences in reform and they rely on strong assumptions. Our regression discontinuity
estimates, while potentially not capturing the full MCC effect, show no consistent positive
effects. Countries that fall just below eligibility cutoffs reform no faster in subsequent years
than countries just passing these cutoffs, on average.
    Our results do not support the view that the MCC has triggered dramatic reform across a
large number of countries and indicators, but we also cannot reject economically significant
effects or effects on specific countries. There is an inherent difficulty in teasing out causal
effects given small sample sizes and country-level data. Many of our estimates are associated
with large confidence intervals. We cannot rule out average effects across indicators as high as
0.25 standard deviations and individual effects for specific indicators as high as 0.5 standard.
    Our results are largely consistent with the comprehensive results reported by Aune et al.
(2013), who also report no consistent positive effects. They are weaker than we originally
reported in Johnson and Zajonc (2006), but our current data and analysis is far more compre-
hensive. We fail to document a robust effect on the control of corruption indicator, as reported
by Ohler, Nunnenkamp and Dreher (2011), although we do not replicate their empirical strategy
exactly or attempt to estimate anticipatory effects. Looking at these results in their totality, the
quantitative evidence for a large, broad-based MCC incentive effect appears weak.
    The best evidence for an MCC incentive effect remains qualitative and country specific. The
results reported by Parks and Rice (2013) and Parks (forthcoming) suggest that MCC eligibility
rules are an important metric used by policymakers in developing countries. But the picture
may be more complex than the simple view of policymakers pursue MCC eligibility solely
to gain financial assistance. Parks and Rice (2013) find the Millennium Development Goals
and Doing Business indicators are also highly influential and that already eligible countries
cite the MCC as an important influence more often than countries seeking eligibility. Parks
(forthcoming) reports that the majority of MCC-inspired policy reforms occur in compact and
threshold countries and that the influence of MCC eligibility rules extends from the agenda-
setting phase of the policymaking process all the way to the reform implementation phase. The
MCC eligibility rules may therefore play an important role in focusing attention on reform and
setting a clear mission for MCC compacts, in addition to any direct incentive effect of financial
assistance.
    Our results do not speak to the overall merit of the MCC. The MCC has attempted to inno-
vate broadly – promoting country-led solutions followed by rigorous evaluations to encourage
continued learning. If the economic rate of return on MCC compacts is greater than traditional
aid players or the rate of learning is high, any MCC incentive effect, whether on outcomes mea-
sured by MCC indicators or the broader policymaking process, would be an extra benefit not
the defining metric of success.




                                                                                                 32
References
Alesina, Alberto and Beatrice Weder. 2002. “Do Corrupt Governments Receive Less Foreign
  Aid?” American Economic Review 92(4):1126–1137.
Aune, Ingrid, Yanyan Chen, Christina Miller and Joshua Williams. 2013. “The MCC Incentive
  Effect: Quantifying Incentives for Policy Change in an Ex-Post Rewards System.” Working
  Paper: University of Madison .
Burnside, Craig and David Dollar. 2000. “Aid, Policies, and Growth.” American Economic
  Review 90(4):847–868.
Danilovich, John. 2006. “Millennium Challenge Corporation Public Outreach Meeting on
  Benin’s Millennium Challenge Compact.”.
  URL: http://www.mcc.gov/documents/transcripts/transcript-022306-beninoutreach.pdf

Dreher, Axel, Peter Nunnenkamp and Hannes Ohler. 2010. “Why it pays for aid recipients to
  take note of the Millennium Challenge Corporation: Other donors do!” Center for European,
  Governance and Economic Development Research Discussion Papers (99).

Dunning, Casey. 2013. MCC’s New Selection System: Three New Indicators, Two Hard Hur-
  dles, One Muddied Mandate? Technical report Center for Global Development.
Easterly, William, Ross Levine and David Roodman. 2004. “Aid, Policies, and Growth: Com-
  ment.” American Economic Review 94(3):774–780.
foreignassistance.gov. 2013.
  URL: http://www.foreignassistance.gov/web/default.aspx
Hahn, Jinyong, Petra Todd and Wilbert Van der Klaauw. 2001. “Identification and Estimation of
  Treatment Effects with a Regression-Discontinuity Design.” Econometrica 69(1):201–209.

Imbens, Guido and Tristan Zajonc. 2011. Regression discontinuity design with multiple forcing
  variables. Technical report Working Paper.
Imbens, Guido W. and Karthik Kalyanaraman. 2008. “Optimal bandwidth choice for the re-
  gression discontinuity estimator.” Harvard University: Working Paper .
Imbens, G.W. and T. Lemieux. 2008. “Regression discontinuity designs: A guide to practice.”
  Journal of Econometrics 142(2):615–635.
Johnson, Doug and Tristan Zajonc. 2006. “Can Foreign Aid Create an Incentive for Good
  Governance? Evidence from the Millennium Challenge Corporation.” Working Paper .
Lee, David S. Lee Thomas Lemieux David S. and Thomas Lemieux. 2009. “Regression Dis-
  continuity Designs in Economics.” NBER Working Paper 14723 .
MCC. 2013a. “The MCC Effect.”.
 URL: http://www.mcc.gov/documents/reports/issuebrief-2013002131301-mcc-effect.pdf


                                                                                          33
MCC. 2013b. Report on the Criteria and Methodology for Determining the Eligibility of Candi-
 date Countries for Millennium Challenge Account Assistance in Fiscal Year 2014. Technical
 report Millennium Challenge Coproration.

Mosley, Paul, John Hudson and Arjan Verschoor. 2004. “Aid, Poverty Reduction and the ‘New
 Conditionality’*.” The Economic Journal 114(496):F217–F243.

Neyman, J. 1923. “On the application of probability theory to agricultural experiments. Essay
  on principles.” Roczniki Nauk Rolniczych 10:1–51.

Ohler, Hannes, Peter Nunnenkamp and Axel Dreher. 2011. “Does Conditionality Work? A Test
  for an Innovative US Aid Scheme.” CESifo Working Paper No. 3454, Category 2: Public
  Choice .

Parks, Bradley C. forthcoming. Brokering Development Policy Change: The Parallel Pursuit
  of Millennium Challenge Account Resources and Reform PhD thesis The London School of
  Economics and Political Science.

Parks, Bradley C. and Zachary J. Rice. 2013. Measuring the Policy Influence of the Millennium
  Challenge Corporation: A Survey-Based Approach. Technical report Williamsburg, VA: The
  College of William and Mary.

Rubin, D.B. 1978. “Bayesian Inference for Causal Effects: The Role of Randomization.” The
  Annals of Statistics 6(1):34–58.

Thistlethwaite, D. and D. Campbell. 1960. “Regression-Discontinuity Analysis: An Alternative
  to the Ex Post Facto Experiment.” Journal of Educational Psychology 51(6):309.

World Bank. 2007. Celebrating Reforms 2007: Doing Business Case Studies. Technical report
 Washington, DC: The World Bank.

World Bank. 2013. “World Development Indicators.”.
 URL: http://data.worldbank.org/data-catalog/world-development-indicators




                                                                                          34
                                                                              Appendix II



EVALUATION OF MANAGEMENT
COMMENTS
MCC provided written comments on the report that are in Appendix III. MCC agreed that an
MCC incentive effect is operative in certain specific instances. MCC also agreed that the
incentive effect does not affect every developing country, but rather a handful of truly
committed, reform-minded governments. MCC noted some of the difficulties and complexities
involved with researching the MCC incentive effect.




                                                                                        35
                                                                                                Appendix III



MANAGEMENT COMMENTS



                                                           August 20, 2014


Office of the Inspector General
1401 H Street, NW
Washington, DC 20005

Dear Inspector General:

MCC appreciates the IG’s efforts to review previous case studies, empirical research, and surveys on the
MCC incentive Effect, as well as conduct a new empirical analysis on whether the MCC Incentive Effect
occurs frequently enough to be detected by statistical analysis.

Based on MCC’s decade of experience - and review of empirical literature on the topic - MCC agrees
with the IG’s finding that “an MCC incentive effect is operative in certain specific instances.” MCC also
agrees the MCC incentive effect does not affect every developing country, but rather a handful of truly
committed reform-minded governments. MCC is glad that the IG shares its view that there are some
instances of specific countries taking on specific reform efforts, as highlighted in third-party literature,
surveys, and MCC’s own website (http://www.mcc.gov/documents/reports/issuebrief-2013002131301-
mcc-effect.pdf.)

Consistent with these points of agreement on the country specific-nature of the MCC-effect, MCC
recognizes that it is an extraordinary challenge to try and design research methodologies that empirically
isolate an “MCC incentive effect.” This is because of the small sample size, the tremendous number of
exogenous variables that create noise in the data, and the complex process of how policy reforms occur
and how they are measured.

Of the two methodologies employed in the new empirical analysis commissioned by the IG, MCC finds
the regression discontinuity - which examines countries just below meeting MCC eligibility requirements
to those just above meeting the requirements - more conceptually valid. However, it still has serious
limitations.

MCC shares the hypothesis that countries just below meeting the MCC eligibility requirements are most
likely to be subject to any MCC Incentive Effect. If countries are very close to being eligible for MCC
funding, they have the most incentive to make reforms to become eligible. This mirrors MCC’s
experiences to date. However, the second most likely group of countries to be impacted by the MCC
eligibility requirements are countries just above the threshold. They are likely to be the most concerned
about sustaining or improving scorecard performance over time. The countries where MCC would least



                                                                                                           36
                                                                                                Appendix III

expect to see MCC Incentive Effect are countries which have been well-governed for years and pass the
scorecard solidly or countries that perform so poorly on the scorecard that they are not within the realm of
MCC consideration. MCC is therefore concerned that the regression discontinuity approach minimizes
the MCC Incentive Effect by comparing the most likely candidates for reform to the second most likely
candidates for reform.

As for the difference-in-differences methodology, which compares MCC candidate countries to upper-
middle income countries, MCC has greater concerns about the conceptual validity of this approach. The
primary concern is that the sample set of countries and the comparator set are so different that is it next to
impossible to “hold constant” all exogenous variables in order to tease out an MCC Incentive Effect (or
lack thereof.) When comparing a set of countries whose average GNI per capita is less than $1,500 to a
set of countries whose average GNI per capita is over $6,500, there are likely too many differences
between the basic characteristics of these countries to make them credible comparators. Notwithstanding
the invention of the MCC scorecard, one can hypothesize many reasons why countries like South Africa,
Costa Rica, and Malaysia have outpaced most of Sub-saharan Africa on policy reform outcomes.

Setting aside specific methodological concerns, however, there is also a larger question about “what is the
MCC incentive effect?” As one can see on MCC’s Issue Brief, when MCC examined its experiences with
countries’ governments on policy reform, it came to several important conclusions and areas for future
research.

       First, as mentioned above, it appears that some countries are incentivized to reform their policies
        or update data to improve performance on MCC’s scorecard. However, not all countries are
        incentivized. So how many countries do actually engage in processes or policy reform to improve
        performance? Is the impact more than the handful of examples showcased in MCC’s literature,
        but fewer than the number necessary to be detected in a regression analysis? How might MCC or
        future researchers determine the breadth and depth of the MCC Incentive Effect?

       Second of all, MCC’s Issue Brief and Dr. Park’s paper based on survey data both assume that the
        MCC Incentive Effect is a process, which may or may not always result in significant
        improvements on outcome data. Most empirical studies on the MCC Incentive Effect to date
        focus only on policy outcomes. That is understandable, given that it is the outcome data that
        appears on our scorecards, but it doesn’t capture reform efforts that have not yet resulted in
        significant shifts in the outcome data. The lack of measureable outcomes does not preclude the
        possibility of significant inputs, processes, or outputs linked to the MCC Incentive Effect. Once
        again, this is a ripe area for further examination: how does one assess these inputs, process, and
        outputs in a manner more robust than our current Issue Brief?

Again, MCC appreciates the IG’s research, which expands the methodologies used to test whether the
MCC Incentive Effect occurs frequently enough to be detected by statistical analysis. This review further
strengthens the literature on this subject. The methodological concerns MCC highlights are not meant to
highlight flaws by the authors, but rather the difficulties in asking and answering the most robust and
relevant questions possible about the MCC Incentive Effect.

                                                   Sincerely,

                                                   /s/
                                                   Sheila W. Herrling
                                                   Vice President
                                                   Department of Policy and Evaluation



                                                                                                           37
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
